No. 20-928
NATIONAL COALITION FOR MEN, ET AL.,
Petitioners,
v.
SELECTIVE SERVICE SYSTEM, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief of Amici Curiae National Organization for Women Foundation, et al. in Support of the
Petitioners was sent via overnight FedEx to the U.S.
Supreme Court and counsel for Petitioners and Respondents on February 11, 2021:
Ria Tabacco Mar
ACLU
125 Broad Street
18th Floor
New York, NY 10004-2400
Counsel for Petitioners
National Coalition for Men, et al.
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
Counsel for Respondents
Selective Service System, et al.

Also served on:
Lindsay C. Harrison
Jenner & Block, LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
Counsel for General Michael Hayden,
et al.

/s/ Thomas M. Bondy
Counsel of Record

